OFFICE OF INSPECTOR GENERAL


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
PROGRAMS IN MOZAMBIQUE

AUDIT REPORT NO. M-000-13-003-P
JANUARY 31, 2013




WASHINGTON, D.C.
Office of Inspector General



January 31, 2013


Mr. Patrick Fine, Vice President
Department of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Fine:

This letter transmits the Office of Inspector General’s report on the ―Audit of the Millennium
Challenge Corporation’s Programs in Mozambique.‖ In finalizing the report, we considered your
written comments on our draft report and included those comments in their entirety in
Appendix II of this report.

The report contains five recommendations to strengthen the Millennium Challenge Corporation’s
(MCC’s) process for managing Mozambique’s compact program. Management comments
indicate that MCC has made management decisions on all five and taken final action on
Recommendation 1.

We appreciate the cooperation and courtesy extended to our staff during this audit.


                                            Sincerely,

                                                   /s/

                                            Richard J. Taylor
                                            Deputy Assistant Inspector General for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
http://oig.usaid.gov
CONTENTS
Summary of Results ......................................................................................................................1

Audit Findings ................................................................................................................................4

     Some Contractors Did Not Meet Deadlines ..............................................................................4

     Some Contractors Did Not Use Advance Payments Properly ..................................................6

     Feasibility Studies and Designs Were Completed Late in Implementation ..............................6

     Branding on Infrastructure Projects Did Not Comply With MCC’s Policy .................................7

Evaluation of Management Comments .......................................................................................9

Appendix I—Scope and Methodology.......................................................................................10

Appendix II—Management Comments ......................................................................................11
SUMMARY OF RESULTS
In July 2007 MCC awarded a 5-year, $507 million compact to the Government of Mozambique
to improve the southeastern African country’s economy and the standard of living in select
provinces in northern Mozambique. To accomplish these goals, the compact included
$203.6 million in water and sanitation projects and $176.3 million in road projects.

The water and sanitation projects included constructing or rehabilitating water supply systems
(including distribution networks) in eight cities and sanitation systems (for wastewater and storm
water) in six cities, rehabilitating the Nacala Dam, and constructing 600 wells in rural areas.
The road project included the rehabilitation of 491 kilometers of the Estrada Nacional 1 Highway
(EN1), a major part of Mozambique’s transportation network.

The Millennium Challenge Account-Mozambique (MCA-M) is the host-government entity
responsible for implementing each project activity. The Mozambican compact entered into force
in September 2008 and is to end in September 2013. As of June 30, 2012, MCA-M had spent
$170 million.

The Office of the Inspector General (OIG) conducted this audit to determine whether MCC’s
water and road projects in Mozambique were achieving their goals. OIG found they were not.

Between November 2010 and April 2011, MCC approved compact modifications reducing the
scope of the water and road projects (Tables 1 and 2).1 MCA-M made them after it reviewed
feasibility studies and designs completed during the third year showing that the costs to finish
the projects were higher than planned. The number of water supply projects dropped from eight
to three, and the number of water sanitation projects from six to two; the scope of the Nacala
Dam and rural wells projects remained the same. The EN1 rehabilitation project was reduced to
253 kilometers from 491 kilometers.

                        Table 1. Modifications of Water Projects (Audited)

                                                          Projects Planned
        Project Activity
                                                                         In Revision Dated
                                            In Compact
                                                                           June 30, 2012
Rural wells                                     600                             600
Nacala Dam                                          1                              1
                                                 8 cities                       3 cities
Water supply systems                   (distribution networks        (distribution networks not
                                               included)                      included)
Water sanitation systems                         6 cities                       2 cities
Estimated number of
                                            1.9 million                       676,351
beneficiaries by 2015


1
   OIG conducted a review of all MCC’s compact modifications through September 30, 2011, which
included Mozambique (―Review of the Millennium Challenge Corporation’s Compact Modifications,‖
Report No. M-000-12-006-S). OIG determined that the modifications were approved in accordance with
the Policy on the Approval of MCC Compact Programs.


                                                                                                  1
                        Table 2. Modifications of Road Projects (Audited)
                                                          Projects Planned
          Project Activity                                      (km)
        (Segments of EN1)                                                 In Revision Dated
                                           In Compact
                                                                            June 30, 2012
Namialo-Rio Lúrio                              148                              150*

Nampula-Rio Ligonha                            102                              103

Rio Lúrio-Metoro                                74                                0

Nicoadala-Chimuara                             167                                0

Total                                          491                              253
Estimated number of
                                            2.3 million                       872,487
beneficiaries by 2015
* Two segments or lots.

Project activities might not achieve their revised goals because contractors were late in
providing studies, designs, and revised cost estimates. These delays meant that MCA-M had
less time to hire construction contractors to complete the projects.

In addition, contractors working on three water and two road projects have been slow to acquire
the staff, equipment, and materials needed to begin construction. As a result, these projects
may not be completed by the end of their contracts or by the end of the compact.

On February 16, 2011, MCC sent a letter to the Mozambican Government establishing strict
milestones and deadlines for the road projects. According to the letter, MCA-M was supposed
to announce invitations for bids by March 1, 2011; sign contracts by June 30, 2011; and start
construction by October 31, 2011. MCA-M met the deadlines for announcing the invitation for
bids and signing contracts, but it did not meet the deadline to start construction.

The audit found the following problems:

    Some contractors did not meet deadlines. Contractors for two road and three water projects
    missed their contractual deadlines because they started late (page 4). Some did not obtain
    equipment on time, and others did not hire staff promptly.

    Some contractors did not use advance payments properly (page 6). They were slow to
    mobilize and made limited progress on construction.

    Feasibility studies and designs were completed late in implementation (page 6). MCA-M did
    not award contracts for feasibility studies and designs for the road and water projects on
    time, nor did contractors complete the work on time. Studies and designs were not finished
    until the third year of the 5-year compact, delaying all procurements.

    Branding of infrastructure projects did not comply with MCC’s policy (page 7). MCC’s logo
    was not prominent on temporary signs for projects or on wells that the U.S. Government
    funded.



                                                                                              2
To address these concerns, the report recommends that MCC’s Vice Pres ident for Compact
Operations:

1. Require MCA-M to address the delays on the infrastructure projects (page 5).

2. Require MCA-M to implement a written plan that identifies other sources of funding to use in
   completing the projects if they are not done when the compact ends (page 5).

3. Establish procedures for Millennium Challenge Accounts to ensure that contractors use
   advances for the purpose specified in the contract—for example, mobilization (page 6).

The report recommends that MCC’s Vice President for Congressional and Public Affairs:

4. Require MCA-M to implement a branding strategy for the wells in rural areas (page 8).

5. Confirm that MCA-M creates permanent signs for infrastructure projects in accordance with
   MCC’s Standards for Global Marking (page 8).

Detailed findings appear in the following section, and Appendix I contains information on the
scope and methodology. Our evaluation of management comments is on page 9, and full text
of the comments appears in Appendix II.




                                                                                             3
AUDIT FINDINGS
Some Contractors Did Not Meet
Deadlines
Each contractor participating in the Mozambique compact was obligated to complete its contract
by the date in Table 3. Although the contract’s general conditions allow MCA-M to extend
deadlines, they could not go beyond the compact’s end date of September 2013. Furthermore,
contractors that are behind schedule are required to revise their work programs. 2 Each program
should include the contractor’s plan for carrying out the work, sequence and timing of
inspections and tests specified in the contract, and a report that includes the methodology and
resources needed onsite for different stages of the work.

                               Table 3. Contract End Dates for Select Road
                                       and Water Projects (Audited)
                                         Project                          End Date
                            Nampula to Rio Ligonha                        April 2013
                            Namialo to Rio Lúrio - Lot 1                January 2013
                            Namialo to Rio Lúrio – Lot 2                January 2013
                            Nacala water supply – Lot 1                  March 2013
                            Nacala water supply – Lot 2                December 2012
                            Nampula water supply – Lot 1                 March 2013
                            Nampula water supply – Lot 2               November 2012
                            Quelimane drainage                         February 2013

Contractors working on two road and three water projects did not meet their contractual
deadlines.

      Nampula to Rio Ligonha (103 kilometers). The contractor missed deadlines in its revised
      work program, which was submitted to the supervisory engineer in March 2012. The
      engineer asked the contractor to submit another revised work program because it had not
      met the March 2012 deadlines. By June 2012, the contractor had not submitted that
      revision—and had 10 months left to complete the contract, which was only about 13 percent
      done.

      Namialo to Rio Lúrio – Lot 1 (75 kilometers). By June 2012, the contractor was 3 months
      behind the original schedule. In addition, it had not acquired the equipment or purchased
      the bitumen needed to finish resurfacing the road by the end of December 2012, 1 month
      before the contract’s end. When OIG conducted a field visit in early June 2012, the
      contractor had completed earthworks and subbase layers for one lane and shoulder along
      8 kilometers of the road, but no resurfacing had taken place.

      Namialo to Rio Lúrio – Lot 2 (75 kilometers). By May 2012, the contractor was behind
      schedule and had not acquired some key staff and equipment. For example, the contractor
      had not selected a highway engineer, and the approved quantity surveyor had not arrived at


2
    This is according to Subclause 8.3 of the contract’s general conditions.



                                                                                              4
   the project site. The contractor missed the deadlines in its revised program, approved in
   May 2012, and had completed only about 10 percent of the contract.

   Nacala water supply. As of June 2012, 8 months had elapsed on the 17 month project, but
   only 2 percent of work had been completed. Despite repeated requests from the
   supervisory engineer, the contractor had not submitted an updated work program to show
   how it planned to finish the project on schedule. Despite these problems, MCC and MCA-M
   were discussing options to provide the contractor with an additional $10 million for work not
   included in the scope of the contract. (As of September 12, 2012, MCC had not yet
   approved the additional work.)

   Nampula water supply. During the first 8 months of the contract, the contractor missed its
   deadlines and did not build the field office or the laboratory. Additionally the contractor had
   cash-flow problems and was unable to pay its workers, resulting in a 2-day strike.

   Quelimane drainage. By June 2012, the contractor charged with rebuilding the drainage
   system for the seaport of Quelimane was about 5 months behind schedule. Although the
   contract was signed in September 2011, the contractor did not start until May 2012. As of
   June 2012, the supervisory engineer had not certified the contractor’s laboratory because it
   did not have all the equipment. Given the slow progress, the engineer estimated that the
   contractor would finish only 70 percent of the project.

MCA-M did not manage the contracts or make prompt decisions when contractors missed their
deadlines. For example, it did not send warning letters to the contractors until February and
March 2012—2 to 4 months after the deadlines in their work programs. In the letters, MCA-M
officials asked the contractors to address the delays and to revise their programs so they would
complete the work by the end of the contracts. MCA-M also reminded the contractors that delay
damages could be imposed if they did not meet their deadlines.

Realizing that MCA-M had difficulties managing the infrastructure contracts, MCC officials had
developed an action plan in November 2011 to address the administration and oversight of the
contracts. This plan included tools that MCA-M officials could use to manage contracts
efficiently. However, OIG could not determine why MCA-M did not use them.

Nevertheless, the road and water projects might not be completed as planned by the end of the
contract term or by the end of the compact. To address these concerns, we make the following
recommendations.
   Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
   President for Compact Operations require the Millennium Challenge Account-
   Mozambique to address the delays on the infrastructure projects.

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President for Compact Operations require the Millennium Challenge Account-
   Mozambique to implement a written plan that identifies other sources of funding to use in
   completing the projects if they are not done when the compact ends.




                                                                                                5
Some Contractors Did Not Use
Advance Payments Properly
Subclause 14.2 of all MCA-M contracts’ general conditions section states that an ―Employer
[MCA-M] shall make an advance payment . . . for mobilization, when the contractor submits a
guarantee.‖ The guarantee must be issued by a local bank in the amount of the advance and
must remain valid until the advance is repaid. The guarantee allows MCA-M to invoke the
guarantee when it can prove in writing that the contractor did not use the advance to start work.

OIG found that $29.7 million in advance payments to contractors for two road and four water
projects were not used in accordance with the contracts. None of the contractors established
camps for workers or acquired key staff and equipment needed to start work until months after
they received the advances. In one instance, a supervisory engineer for a water project
suggested that MCA-M audit the use of advance payments.

This problem occurred because MCA-M did not have procedures or controls in place to confirm
that contractors used the payments for the projects. For example, contractors were not required
to report to MCA-M on how they used the advance payments. In addition, the contracts did not
explain what expenses the advance could be used for—for example, hiring staff, setting up
camps, and acquiring equipment. Therefore, the term ―mobilization‖ was open to interpretation.

As stated above, the guarantee requires that the employer prove in writing that the contractor
did not use the advance to start work. Without a defined mobilization scope of work / timeline
linked to the advance, the employer may be unable to ―prove in writing that the contractor did
not use the advance to start work.‖ This lack of specificity may inhibit the employer’s ability to
call the guarantee on a timely basis. A monitoring system that provides immediate feedback on
the contractor’s progress, or lack thereof, would strengthen the MCA’s management of its
contracts, and reduce delays caused by the lack of timely mobilization.

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President for Compact Operations establish procedures for Millennium Challenge
   Accounts to ensure that contractors use advances for the purpose specified in the
   contract (for example, mobilization).

Feasibility Studies and Designs Were
Completed Late in Implementation
The contractors were required to complete the feasibility studies and designs about 1 year after
their contracts were awarded. However, the contractors took almost 2 years to complete both
the feasibility studies and designs. At that point, MCA-M had entered its third year of
implementation of the compact and had less time to procure construction contracts.

MCA-M officials did not award the feasibility studies and designs or supervise the work done
under the contracts until almost the end of the first year of implementation. The contractors did
not deliver the feasibility studies on time, causing further delays. In addition, MCA-M officials
spent several months reviewing, revising, and approving the documents, again adding to the
delays.




                                                                                                6
The feasibility studies and designs were an integral part of the bid package; without them, the
procurement process could not take place.

Completing feasibility studies and designs after implementation is a problem that OIG has seen
in previous audits of MCC’s programs. In response to that, MCC issued the revised Compact
Development Guidance in January 2012, which includes requirements for completing feasibility
studies and designs before implementation. Therefore, OIG is not making a recommendation
on this matter.

Branding on Infrastructure Projects
Did Not Comply With MCC’s Policy

MCC’s branding and marking policy states that all infrastructure projects should include signs
with the logos for MCC and the relevant Millennium Challenge Account. Branding must
communicate that the grant is made possible through the generosity of the people of the United
States.

According to its branding guidelines, MCC reserves the right to have its logo be the dominant
element on signs. No other logo, seal, or signature can be bigger than MCC’s. In addition, the
guidelines do not permit contractors to include their logos on the signs.

During fieldwork, OIG found that the Mozambican Government’s logo and signature dominated
the temporary signs at two road project sites, one of which is shown below. In addition, the
signs included the contractors’ and supervisory engineers’ logos.




                        MCC’s logo is hard to see on this road project
                        sign near Nampula. (Photo by OIG for MCC,
                        June 2012)

MCA-M officials said they designed the templates for the temporary signs at the project sites to
be consistent with the Mozambican Government’s standards, which make the government’s
logo dominant. As a result, it may not be clear to Mozambicans that the American people paid
for the projects.


                                                                                              7
In addition to the road project sites, OIG visited 2 of the 270 wells that MCA-M installed in rural
areas. Neither had any signs that said the American people provided the wells. MCA-M officials
said they did not have a branding strategy for the wells.

To address this concern, we make the following recommendation.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs require the Millennium Challenge
   Account-Mozambique to implement a branding strategy for the wells in rural areas.

Replacing the existing temporary signs would not be a worthwhile investment with only 1 year
left in the compact. Therefore, we make the following recommendation for the permanent signs.

   Recommendation 5. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs confirm that the Millennium Challenge
   Account-Mozambique creates permanent signs for infrastructure projects in accordance
   with Standards for Global Marking.




                                                                                                 8
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with all five recommendations.

Recommendation 1. MCC agreed to require MCA-M to address the delays on infrastructure
projects. MCC and MCA-M continue to monitor work programs for each contract and identify
steps to reduce delays. In addition, senior U.S. Government, Government of Mozambique
officials, and senior MCC officials are working to address the delays. OIG acknowledges MCC’s
management decision and final action on this recommendation.

Recommendation 2. MCC agreed to implement a written plan that identifies other sources of
funding to use in completing the projects if they are not done when the compact ends. MCA-M
is developing the compact closure plan, which will include a strategy for funding any projects not
completed by the end of the compact. OIG acknowledges MCC’s management decision on this
recommendation. Final action will occur when MCC approves MCA-M’s closure plan, due to
MCC on March 29, 2013.

Recommendation 3. After initially disagreeing with the finding and recommendation that led to
this recommendation, MCC issued a revised comment agreeing with the revised
recommendation. It committed to establish procedures for MCAs to ensure contractors use
advances for the purpose specified in the contract (for example, mobilization). MCC will provide
MCAs with guidance on monitoring compliance with the use of advances. OIG acknowledges
MCC’s management decision on this recommendation. Final action will occur when MCC
issues the guidance to the MCAs.

Recommendation 4. MCC agreed to implement a branding strategy for the wells in rural areas.
MCA-M began placing plaques on rural wells and will continue this process through July 2013.
OIG acknowledges MCC’s management decision on this recommendation. Final action will
occur when MCA-M places plaques on all rural wells.

Recommendation 5. MCC agreed to confirm that MCA-M creates permanent signs for
infrastructure projects in accordance with Standards for Global Marking. MCC will work with
MCA-M to see that durable plaques are installed at the infrastructure project sites by September
2013. OIG acknowledges MCC’s management decision on this recommendation. Final action
will occur when MCC verifies permanent signs are in place.




                                                                                                9
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
We planned and performed the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our objective. We believe
that the evidence obtained provides that reasonable basis.

OIG audited road and water projects totaling almost $380 million, which represented 75 percent
of the compact. We conducted our fieldwork at MCC headquarters in Washington, D.C., from
May 14 to September 12, 2012. We also conducted site visits in Mozambique at MCA-M in
Maputo, a water project in Quelimane, two road projects in Nampula, and four water projects in
Nampula and Nacala, and 2 boreholes in Nampula from June 4 to June 22, 2012.

In performing and planning the audit, we reviewed supporting documentation for the projects,
such as the Mozambican compact, contracts, progress reports, implementation letters,
condition’s precedent, monitoring and evaluation plans, indicator tracking tables, and detailed
financial plans.

We examined the internal control environment and reviewed relevant controls for project
oversight of the road and water projects. Controls included a review of procurement documents
to verify the eligibility of the bidders and ensure approvals were in accordance with MCC’s
procurement policies. We conducted site visits of the water projects sites and interviewed
contractors and supervisory engineers to verify contractor performance. We also reviewed the
controls over the payment of advances to contractors, including performance guarantees and
the approvals authorizing payment of the advances.

Methodology
To answer the audit objectives, we performed the following activities:

   Interviewed MCC, MCA-M, and Mozambican officials implementing or overseeing the road
   and water projects to gain an understanding of the projects and their progress and to assess
   controls over the implementation of the projects.

   Reviewed and analyzed project documents to understand the projects’ design,
   implementation, and progress.

   Conducted site visits at the two road projects and six water projects (including 2 boreholes)
   to assess their progress.




                                                                                             10
                                                                                     Appendix II



MANAGEMENT COMMENTS




DATE:              December 7, 2012

TO:                Richard Taylor
                   Deputy Assistant Inspector General
                   Office of Inspector General
                   Millennium Challenge Corporation

FROM:              Andrew Mayock, Deputy Vice President /s/
                   East and Southern Africa
                   Department of Compact Operations
                   Millennium Challenge Corporation

SUBJECT:           MCC’s Response to the Office of Inspector General’s (OIG) Report “Audit of
                   the Millennium Challenge Corporation’s Programs in Mozambique”

Dear Mr. Taylor:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to
the OIG’ report entitled “Audit of the Millennium Challenge Corporation’s Programs in
Mozambique,” dated November 27, 2012.

MCC’s specific responses to the five recommendations in the report are detailed below.

Recommendation 1: We recommend that the Millennium Challenge Corporation’s Vice
President for Compact Operations require the Millennium Challenge Account-Mozambique to
address the delays on the infrastructure projects.

MCC Response: MCC agrees with this recommendation, and MCC actions on this front are
underway. MCC’s independent engineers, MCC staff, MCA-Mozambique (MCA-M) staff and
MCA-M’s independent engineer make regular site visits to monitor contractor and supervisory
engineers’ performance based on work programs established for each contract in accordance
with the industry standard of the Federation Internationale des Ingenieurs – Conseils (FIDIC).



                                                                                                 11
                                                                                        Appendix II


Each work program, once approved, is an “action plan” for each specific infrastructure activity,
and is modified as appropriate to account for project delays. MCC and MCA-M continue to
monitor the status of the approved work programs for each contract and to identify steps to
reduce delays in coordination with MCA. In addition to the day-to-day management of these
programs by the MCC resident mission and MCA-M management, senior United States
Government (USG) and Government of Mozambique (GOM) officials are also working on
addressing the delays, including GOM ministers and MCC senior officials.

Recommendation 2: We recommend that the Millennium Challenge Corporation’s Vice
President for Compact Operations require the Millennium Challenge Account-Mozambique to
implement a written plan that identifies other sources of funding to use in completing the
projects if they are not done when the compact ends.

MCC Response: MCC agrees with this recommendation, and MCC actions on this front are
underway. In accordance with MCC’s Program Closure Guidelines (dated May 9, 2011), MCA-
M is in the process of developing a closure plan that describes the closure strategy for each
compact project. The closure plan will include a strategy for funding the completion of any
projects that will not be completed by the end of the compact term, and it will identify any
potential funding sources. This plan will be completed by March 29, 2013.


Recommendation 3: We recommend that the Millennium Challenge Corporation’s Vice
President for Compact Operations establish procedures for Millennium Challenge Accounts to
monitor contractors’ use of advances.

MCC Response: MCC disagrees with this recommendation. The purpose of the advance is to
assist the contractor with the cash flow required during the early phases of the project. Cash flow
requirements are dictated by the contractor’s schedule over which the client, and ultimately
MCC, has little control except to validate its reasonableness. Monitoring how the contractor used
his advance would be costly in terms of effort required and would present a low return because
payments are made against delivered items and rates in the Bill of Quantities. The terms of the
advance are clearly defined in the Standard Bidding Documents and under FIDIC (Section 14.2)
and MCC Conditions of Particular Application (COPA). These documents require a guarantee
and that the advance payment be repaid according to a defined schedule. This is an industry
standard practice.

MCC would also like to note that on page 8 of the OIG’s report, the OIG references sub-clause
14.2 of the General Conditions of Contract (one of the form construction contracts used by
MCAs) noting that it states that an “Employer (MCA-M) shall make an advance payment, as an
interest-free loan for mobilization, when the contractor submits a guarantee.” However, MCC’s
COPA amends various sections of the General Conditions of Contract, including sub-clause
14.2. MCC’s amendment to sub-clause 14.2 deletes the phrase “as an interest-free loan” from the
first sentence of the paragraph so that advance payments are not considered interest-free loans
but in fact must be supported by an unconditional security guarantee or bond from a reputable
commercial bank in an amount equal to the advance payment.




                                                                                                   12
                                                                                        Appendix II


Recommendation 4: We recommend that the Millennium Challenge Corporation’s Vice
President for Congressional and Public Affairs require the Millennium Challenge Account-
Mozambique to implement a branding strategy for the wells in rural areas.

MCC agrees with this recommendation. In January 2012, MCC released new Standards for
Global Marking which requires MCAs to brand works projects during construction and when
completed. MCC will continue to provide technical assistance and guidance to MCAs as they
implement the new branding policy and guidance. This issue has already been addressed in
Mozambique by placing plaques on all rural water points, including signs on the Small-Scale
Solar Systems. This process is ongoing through the end of works on rural water points and will
be fully implemented by July 2013.

Recommendation 5: We recommend that the Millennium Challenge Corporation’s Vice
President for Congressional and Public Affairs ensure the Millennium Challenge Account-
Mozambique creates permanent signs for infrastructure projects in accordance with Standards
for Global Marking.

MCC agrees with this recommendation. MCC’s new Standards for Global Marking require that
MCAs erect a durable plaque when infrastructure and works projects are completed. The plaque
must be made of sturdy, weather resistant material, include the MCC brand signature
acknowledging the support of the United States of America, and be placed in a location that is
visible to vehicular and pedestrian traffic, whenever possible. MCC will work with MCA-M to
ensure that durable plaques are installed at the infrastructure project sites by September 2013. In
fact, this issue has already been addressed in Mozambique by placing plaques on all rural water
points, including signs on the Small-Scale Solar Systems, and by placing billboards in Nampula.

This constitutes MCC’s formal response to the draft report as well as Management Decision for
each of the above recommendations. If you have any questions or require anything additional,
please contact Pat McDonald, Compliance Officer at 202-521-7260.




                                                                                                 13
                                                                                    Appendix II




DATE:              January 17, 2013
TO:                Richard Taylor
                   Deputy Assistant Inspector General
                   Office of Inspector General
                   Millennium Challenge Corporation

FROM:              Andrew Mayock, Deputy Vice President /s/
                   East and Southern Africa
                   Department of Compact Operations
                   Millennium Challenge Corporation

SUBJECT:           MCC’s Response to the Office of Inspector General’s (OIG) Draft Report
                   entitled “Audit of the Millennium Challenge Corporation’s Programs in
                   Mozambique”

Dear Mr. Taylor:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to provide a
revised response to recommendation number 3 in response to your transmittal letter dated
January 14th, 2013.

MCC’s specific response to the recommendation is detailed below.


Recommendation 3: We recommend that the Millennium Challenge Corporation’s Vice
President for Compact Operations establish procedures for Millennium Challenge Accounts to
ensure that contractors use advances for the purpose specified in the contract (for example”
mobilization).

MCC Response:

MCC agrees with this recommendation. The purpose of the initial advance is to assist the
contractor with the cash flow required during the early phases of the project. Cash flow
requirements are dictated by the contractor’s schedule over which the client and ultimately MCC
validate the reasonableness. Advance payments are monitored against delivered items and rates




                                                                                               14
                                                                                         Appendix II


in the Bill of Quantities. The terms of the advance are clearly defined in the Standard Bidding
Documents and under FIDIC (Section 14.2) and MCC Conditions of Particular Application
(COPA). These documents require a guarantee from an acceptable financial institution and that
the advance payment be repaid according to a defined schedule. MCC will provide MCA’s with
guidance about monitoring compliance with the use of the advances by:

   1) Ensuring that the Standard Bidding Documents and the Works contract (a) properly and
      clearly define the mobilization and related advance, (b) provide a clear timeline for
      mobilization and (c) provide remedies and protections for delays in such mobilization
      such as increases in the performance bond or retention amounts

   2) Reiterating the role of and involvement of the supervisory engineer in tracking,
      monitoring and reporting on mobilization of the contractor to MCA

   3) Requiring enforcement of the terms of the contract as it relates to advances including the
      call on the guarantee

   4) Requiring MCA to provide MCC with update on mobilization on large works contracts as
      part of the MCA project management reporting.

This constitutes MCC’s formal response to the revised recommendation as well as Management
Decision. If you have any questions or require anything additional, please contact Pat
McDonald, Compliance Officer at 202-521-7260.




                                                                                                 15
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Avenue, NW
           Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
            http://oig.usaid.gov
